Washington, D.C. 20530

September 8, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 2054
Re: Ricky Parkerson v. United States of America,
S.Ct. No. 20-8345
Dear Mr. Harris:
The petition for a writ of certiorari in this case was filed on June 11, 2021. Although the
government waived its right to file a response, the Court has requested that a response be filed.
The government’s response is now due on September 15, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including October 15, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Brian Fletcher
Acting Solicitor General
cc: See Attached Service List

20-8345
PARKERSON, RICKY
USA

CHRISTOPHER A. CURTIS
FEDERAL PUBLIC DEFENDER'S OFFICE
819 TAYLOR STREET
ROOM 9A10
FORT WORTH, TX 76102
CHRIS_CURTIS@FD.ORG

